U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




          NATIONAL INSTITUTE OF
     STANDARDS AND TECHNOLOGY

                   NIST’S MANAGEMENT OF
                INTERAGENCY AGREEMENTS

     Final Report No. STD-14439-4-0001/September 2004




                            PUBLIC
                            RELEASE



            Office of Audits, Business & Science Division

U.S. Department of Commerce                                                Report No. 14439-4-0001
Office of Inspector General                                                        September 2004

funding, $103.9 for work performed for other federal agencies and the balance from
direct appropriations. 2

NIST’s enabling legislation, specifically 15 USC 275b, requires the recovery of costs for
any service provided to another government entity. The NIST Administrative Manual
provides additional details regarding the recovery of costs. According to the manual,
care should be taken in the development of estimates to ensure that all appropriate costs
are included. For example, when work is performed under the authority of NIST’s
enabling legislation, all costs of the services provided, including overhead or indirect
charges, should be included in the estimate. The manual also explains that the NIST
director may allow the unit sponsoring the agreement to waive some or all of the
overhead costs it would otherwise charge the customer agency if the director determines
that the interest of the Government would be best served by waiving the charge.
However, all waived charges, regardless of amount, must be accounted for by
transferring the cost to a NIST appropriation- funded cost center.

Our review focused on the agreements at the Physics Laboratory active in fiscal year
2002, but some of the issues we found there prompted us to conduct a more general
review of the process at the other six laboratories. We selected 30 interagency
agreements from all seven of the laboratories from an estimated total of 300. NIST could
not provide us with a complete and accurate inventory of active fiscal year 2002
agreements.

We found it difficult to assess whether NIST was recovering full costs because it was not
properly recording and tracking program and cost data pertaining to these agreements.
For example,

      •	 Laboratories did not always establish project or task codes to record all expenses
         for each project.
      •	 NIST’s legacy financial system could not provide information on the total amount
         collected or spent for individual agreements.

We also had difficulty obtaining comprehensive records that included proposals and
statements of work. In the absence of information on work required, work performed,
and the total amount spent, external reviewers and NIST managers cannot assess whether
full costs are being recovered. As such, NIST may be improperly using its appropriation
to conduct work for other agencies, and thereby limiting the funding it has to conduct its
own work. For example, in at least eight of the agreements that did have detailed
proposals or statements of work, we found evidence indicating that NIST either agreed to
accept less than full cost or was not recovering full cost for some other reason. In either
case, we did not find evidence of the required waiver.

We found other problems with the way the agreements were reviewed. For example,
NIST’s Administrative Manual requires the Chief of the Financial Policy Division to

2
    These amounts do not include funding from non-governmental entities.


                                                     2

U.S. Department of Commerce                                                  Report No. 14439-4-0001
Office of Inspector General                                                          September 2004

approve interagency agreements after reviewing proposals, statements of work, and other
key documents. The NIST manual also requires agreements to receive legal review when
terms and conditions are questionable or other provisions regarding intellectual property
rights or ownership occur. However, we found that many agreements had been approved
without a statement of work and that none of the agreements we reviewed had evidence
of legal review, even though some had questionable terms or special conditions, such as a
lack of full cost recovery.

NIST’s revised policies and procedures in conjunction with the Department’s new
guidance, should provide an appropriate basis for addressing the concerns we found
during our review. Through discussions with your office, we are aware that NIST is
already addressing the concerns we raised in this memorandum as part of its ongoing
work to respond to issues surrounding its management of interagency agreements.

We appreciate the courtesies and cooperation your staff extended to us during our review.
If you would like to discuss these matters further, please call me at (202) 482-3516 or
William F. Bedwell, Jr., Acting Deputy Assistant Inspector General for Audits, on (202)
482-1934.

cc: Stephen Willett, Audit Liaison




3
  Review of NIST Policies and Practices on Other Agency (OA) Funding, Report of the O-Board, March 28,
2002
4
  Improvements Are Needed in Commerce Agencies’ Implementation and Oversight of Interagency and
Other Special Agreements, Final Inspection Report No. IPE-9460/September 2000


                                                  3

